   June 14, 2004




Acquisition
Acquisition of the MH-47G Helicopter
Service Life Extension Program
(D-2004-089)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CJCS         Chairman, Joint Chiefs of Staff
C4I          Command, Control, Communications, Computers, and Intelligence
DCMA         Defense Contract Management Agency
ICTO         Interim Certificate to Operate
JCS          Joint Chiefs of Staff
LRIP         Low-Rate Initial Production
MOA          Memorandum of Agreement
ORD          Operational Requirements Document
SOCOM        Special Operations Command
USASOC       U.S. Army Special Operations Command
          Office of the Inspector General of the Department of Defense
Report No D-2004-089                                                     June 14, 2004
   (Project No. D2004AE-0014)

                 Acquisition of the MH-47G Helicopter Service
                            Life Extension Program

                                 Executive Summary

Who Should Read This Report and Why? Civil service and military managers who
are involved in the management, support, and oversight of the MH-47G Helicopter
Service Life Extension Program should read this report because it discusses issues that
must be addressed before the program progresses further through the acquisition process.

Background. This report is the second of two reports that discuss the acquisition of DoD
heavy-lift helicopters. The first report discussed the acquisition of the Army CH-47F
Improved Cargo Helicopter (the CH-47F Program). This report discusses the acquisition
of the U.S. Special Operations Command MH-47G Service Life Extension Program (the
MH-47G Program). The MH-47G Program is a modification of the Special Operations
Aviation Regiment fleet of MH-47D and MH-47E Chinook helicopters to incorporate the
service life extension elements of the Army CH-47F Program. The modifications include
an airframe rebuild for reduced vibration, new engines for increased lift and range, and
new and modified avionics to support the special operations mission. By upgrading and
extending the service life of the MH-47 fleet, the MH-47G Program will provide for
rapid movement of special operations forces, equipment for counterterrorism actions,
strategic intelligence strikes, tactical reconnaissance, infiltration, resupply, extraction,
and interdiction operations during night, day, adverse weather, and limited visibility
conditions. The estimated cost of the MH-47G Program is $958.1 million for
61 MH-47G helicopters: with $12.4 million for research, development, test, and
evaluation; and $945.7 million for procurement.

Results. The U.S. Army Special Operations Command did not update the operational
requirements documents for the MH-47D/E Service Life Extension Program to fully
define interoperability requirements for the MH-47G configuration, and the MH-47G
Product Manager did not prepare the Command, Control, Communications, Computers,
and Intelligence Support Plan (Support Plan) as required. As a result, the Office of the
Joint Chiefs of Staff cannot use the operational requirements documents to effectively
review and certify the adequacy of MH-47G requirements for systems interoperability.
Additionally, without a Support Plan, the MH-47G Product Manager cannot plan and
execute the interoperability testing necessary to allow the Joint Interoperability Test
Command to certify that the MH-47G has met interoperability requirements before the
full-rate production decision, planned for November 2004. Further, a broad range of
DoD offices will be unable to review the Support Plan for the MH-47G when performing
interoperability and supportability assessments to determine DoD-wide interoperability
shortfalls and potential solutions. Updating the operational requirements document and
preparing the Support Plan will allow the Joint Chiefs of Staff to review and certify
MH-47G system interoperability requirements, enable the MH-47G Product Manager to
plan and execute testing to achieve interoperability certification through the Joint
Interoperability Test Command, and allow concerned DoD offices to better identify DoD-
wide interoperability and supportability shortfalls. See the Finding section of the report
for detailed recommendations.

The U. S. Special Operations Command and the Army are to be commended for initiating
corrective actions during the audit to address audit issues on updating and approving a
draft memorandum of agreement for coordinating development and production of the
MH-47G and the CH-47F helicopters; completing a memorandum of agreement with the
Commander, Defense Contract Management Agency for providing contract management
support to the MH-47G Program; revising the test and evaluation master plan by
quantifying threshold requirements for measures of effectiveness and suitability, by
providing the rationale for not requiring live-fire test and evaluation, and by providing
required schedule dates for test resources; and establishing procedures to ensure prompt
communication of critical information between their administrative contracting offices.
Appendix B provides details on the U.S Special Operations Command and Army
corrective actions.

Management Comments and Audit Response. The Deputy Commanding General,
responding for the Commander, U. S. Army Special Operations Command, concurred
with updating the operational requirements document for the MH-47D/E Service Life
Extension Program to fully define interoperability requirements for the MH-47G
configuration, stating that the U. S. Army Special Operations Command will submit an
amendment to the operational requirements document for the MH-47D/E Service Life
Extension Program that will include the requirement for an interoperability key
performance parameter. The Deputy Commanding General, responding for the MH-47G
Product Manager, nonconcurred with preparing the Support Plan to allow the Product
Manager to plan and execute the interoperability testing necessary to allow the Joint
Interoperability Test Command to certify that the MH-47G has met interoperability
requirements, stating that field experience with the MH-47D/E had sufficiently
demonstrated effective system interoperability. The Director, Joint Staff provided
unsolicited comments. The Director, Joint Staff agreed with the finding subject to our
revising the recommendations to ensure that the MH-47G Program meets requirements
for capabilities documentation, interoperability certification, and certification testing in
accordance with the latest Joint Staff policy.

Although the Deputy Commanding General’s comments were responsive to fully
defining interoperability requirements for the MH-47G, we have revised the
recommendations based on the Director, Joint Staff comments. Therefore, we request
that the Commander, U. S. Army Special Operations Command and the Product Manager
for the MH-47G Helicopter Service Life Extension Program comment on the revised
recommendations by July 14, 2004. See the Finding section of this report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents
Executive Summary                                                        i

Background                                                              1

Objective                                                               2

Finding
     Defining System Interoperability and Supportability Requirements   3

Appendixes
     A. Scope and Methodology                                           14
         Management Control Program Review                              14
         Prior Coverage                                                 15
     B. Management’s Corrective Actions Taken During the Audit          16
     C. Report Distribution                                             19

Management Comments
     Department of the Army                                             21
     Joint Staff                                                        23
Background
    This report is the second of two reports that discuss acquisition of DoD heavy-lift
    helicopters. The first report discussed the acquisition of the Army CH-47F
    Improved Cargo Helicopter (the CH-47F Program). This report discusses the
    acquisition of the U.S. Special Operations Command (SOCOM) MH-47G
    Helicopter Service Life Extension Program (the MH-47G Program). The
    MH-47G Program is a modification of the existing fleet of MH-47D and MH-47E
    Chinook helicopters in use in the 160th Special Operations Aviation Regiment of
    SOCOM. The modification incorporates the service life extension elements of the
    Army CH-47F Program, including airframe rebuild for reduced vibration and new
    engines for increased lift and range, along with new and modified avionics to
    support the special operations mission. By upgrading and extending the service
    life of the MH-47 fleet, the MH-47G Program will provide for rapid movement of
    special operations forces equipment for counterterrorism actions, strategic
    intelligence strikes, tactical reconnaissance, infiltration, resupply, extraction, and
    interdiction operations during night, day, adverse weather, and limited visibility
    conditions. Other missions include light infantry operations for special operations
    contingencies, civil affairs, and psychological operations.

    Link to Army CH-47F Program. The MH-47G Program became linked with
    the Army CH-47F Program when the Army Vice Chief of Staff directed that the
    CH-47F Project Manager incorporate 61 special operations helicopters (the
    MH-47G) into the planned production of the CH-47F. Based on the Vice Chief of
    Staff’s direction, the acquisition communities within SOCOM and the Army
    developed a memorandum of agreement (MOA) to plan the development and
    upgrade of the MH-47G and CH-47F helicopters. SOCOM plans to upgrade
    61 Chinook helicopters to MH-47Gs, and the Army plans to upgrade
    300 Chinooks to CH-47Fs.

    Program Initiation. SOCOM initiated what is now the MH-47G Program in
    October 1997, by approving the “Operational Requirements Document for the
    MH-47D/E Service Life Extension Program.” In July 2002, after planning the
    addition of modified avionics, SOCOM redesignated the program as the MH-47G
    Helicopter Service Life Extension Program. The SOCOM Product Manager,
    Technology Applications Program Office and the MH-47G Product Manager
    manage the MH-47G Program.

    Acquisition Strategy. Under the SOCOM acquisition strategy, the legacy
    MH-47E helicopter design is the baseline configuration to which SOCOM will
    incorporate the Army CH-47F airframe service life extension with the SOCOM
    Common Avionics Architecture Suite (CAAS) and additional avionics and
    hardware modifications to derive the MH-47G helicopter. Because of the
    incorporation of the service life extension elements of the Army CH-47F Program
    and the concurrency of the two programs, SOCOM stated in the Single
    Acquisition Management Plan, September 2002, that the acquisition strategy for
    the MH-47G would mirror the Army acquisition strategy for the CH-47F.
    Specifically, as the Army awards contracts for low-rate initial production (LRIP)
    and full-rate production lots, SOCOM will follow the same contracting strategy
    for corresponding deliveries for the MH-47G helicopters.


                                          1
    Production Decisions. In August 2002, the SOCOM Acquisition Executive
    approved the MH-47G Program for entry into LRIP. Because of the increased
    mission demands for special operations aircraft, the Deputy Secretary of Defense
    issued Program Decision Memorandum I, December 12, 2002, that required the
    Army to transfer 16 additional CH-47s to USSOCOM for conversion and rebuild
    to the MH-47G configuration. Consequently, the Army project manager awarded
    the LRIP Lot I contract to Boeing Helicopters for 1 CH-47F helicopter with an
    option for 6 MH-47G helicopters. Additionally, the Army plans to produce
    16 MH-47G helicopters in LRIP Lot II and another 16 MH-47G helicopters in the
    first lot of full-rate production.

    Program Funding. SOCOM estimated the cost of the MH-47G Program at
    $958.1 million for 61 MH-47G helicopters, including $12.4 million for research,
    development, test, and evaluation, and $945.7 million for procurement.

Objective
    The primary audit objective was to evaluate the overall management of the U.S.
    Special Forces Command MH-47G Helicopter Service Life Extension Program.
    Because the program was in the LRIP phase, we evaluated management’s
    preparation of the program for the full-rate production phase of the acquisition
    process. We also evaluated the management control program as it related to the
    audit objective. See Appendix A for a discussion of the scope and methodology,
    the review of the management control program, and prior coverage related to the
    audit objective.




                                        2
           Defining System Interoperability and
           Supportability Requirements
           Although the MH-47G Product Manager had begun LRIP of the MH-47G
           helicopter, system interoperability and supportability requirements had not
           been defined to support pre-production testing requirements. Specifically:

                  •   the combat development staff at the U. S. Army Special
                      Operations Command (USASOC) had not updated the
                      operational requirements document (ORD) for the MH-47D/E
                      Service Life Extension Program to fully define the
                      interoperability requirements for the MH-47G configuration,
                      and

                  •   the MH-47G Product Manager had not prepared a Command,
                      Control, Communications, Computers, and Intelligence (C4I)
                      Support Plan for the MH-47G Program.

           Those conditions occurred because USASOC combat developers did not
           follow established DoD policy for timely updating the operational
           requirements document after planning to add avionics and hardware to
           upgrade the MH-47D and E helicopters to the MH-47G configuration, and
           the MH-47G Product Manager did not follow established DoD policy for
           preparing a C4I Support Plan to address MH-47G interoperability and
           supportability requirements. As a result, the Joint Chiefs of Staff (JCS)
           cannot use the ORD to effectively review and certify the adequacy of
           MH-47G requirements for systems interoperability. Additionally,
           without a C4I Support Plan, the MH-47G Product Manager cannot plan
           and execute the interoperability testing necessary for the Joint
           Interoperability Test Command to certify that the MH-47G has met
           interoperability requirements before the full-rate production decision,
           planned for November 2004. Further, the broad range of DoD offices that
           review individual program C4I Support Plans to determine DoD-wide
           interoperability shortfalls and potential solutions do not have access to the
           C4I Support Plan for the MH-47G Program.

Requirements and Supportability Policy
    The DoD provides policies and guidance for DoD Components to use in defining
    system requirements in ORDs and in preparing C4I Support Plans. The primary
    DoD requirements-related regulations being used in July 2002, when USASOC
    decided to upgrade the MH-47D and E helicopters to the MH-47G configuration,
    included Chairman, Joint Chiefs of Staff (CJCS) Instruction 3170.01B,
    “Requirements Generation System,” April 15, 2001; CJCS Instruction 6212.01B,
    “Interoperability and Supportability of National Security Systems, and
    Information Technology Systems,” May 8, 2000; and DoD Instruction 4630.8,
    “Procedures for Interoperability and Supportability of Information Technology




                                         3
(IT) and National Security Systems, (NSS)” May 2, 2002. The “Interim Defense
Acquisition Guidebook,” October 30, 2002 (the Guidebook), provides guidance
for preparing and reviewing the C4I Support Plan.

CJCS Instruction 3170.01B. CJCS Instruction 3170.01B provides policies and
procedures for developing, reviewing, validating, and approving ORDs. The
ORD, as defined in the Instruction, contains operational performance
requirements for a proposed system. Operational performance requirements are
to be defined for system performance parameters, such as range, payload and
speed; information exchange requirements; interoperability and standardization;
logistics and readiness, including operational availability, and frequency and
duration of maintenance; command, control, communications, computers, and
intelligence support standardization; and human systems integration.

On June 24, 2003, the CJCS issued CJCS Instruction 3170.01C, “ Joint
Capabilities Integration and Development System,” which requires that managers
of programs approaching LRIP document requirements through a Capabilities
Production Document, rather than an ORD. However, CJCS
Instruction 3170.01C allows DoD Components to update existing ORDs as long
as they are updated in accordance with the revised Instruction.

CJCS Instruction 6212.01B. CJCS Instruction 6212.01B establishes policies
and procedures to enable the Joint Chiefs of Staff Director for Command, Control,
Communications and Computers Systems Directorate (J6) to certify
interoperability requirements in the ORD and the C4I Support Plan. The
Instruction also details a methodology to develop the key performance parameter
for interoperability and provides a checklist for J6 certification of program C4I
Support Plans.

On November 20, 2003, the CJCS issued CJCS Instruction 6212.01C,
“Interoperability and Supportability of Information Technology and National
Security Systems,” which superceded CJCS Instruction 6212.01B. CJCS
Instruction 6212.01C requires a net-ready key performance parameter instead of
the interoperability key performance parameter. The broader-scoped, net-ready
key performance parameter includes compliance with the Net-Centric Operations
and Warfare Reference Model, applicable Global Information Grid Key Interface
Profiles, DoD information assurance requirements, and supporting integrated
architecture products required to assess information exchange and use for a given
capability. However, CJCS Instruction 6212.01C states that the interoperability
key performance parameters contained in existing ORDs will remain valid until
superceded by completed integrated architectures. Additionally, CJCS
Instruction 6212.01C requires an Information Support Plan instead of the C4I
Support Plan. The Information Support Plan, as defined in CJCS
Instruction 6212.01C, must contain sufficient detail to permit J6 interoperability
certification, as did the C4I Support Plan.

DoD Instruction 4630.8. The DoD Instruction provides policy and
responsibilities for interoperability and supportability of the information
technology segment of weapons systems and defines the purposes and elements of
a C4I Support Plan.



                                     4
   The Guidebook. The Guidebook defines the format and review process for a C4I
   Support Plan. Specifically, the Guidebook provides a sample format with
   descriptions of the suggested content of each format element. The Guidebook
   also lists the DoD offices that are responsible for reviewing the C4I Support Plan.

Updating the ORD
   On March 18, 1998, SOCOM approved an update to the ORD for the
   MH-47D/E Service Life Extension Program.” The ORD described requirements
   for sustaining the performance of the existing fleet of MH-47D and E helicopters
   to meet continuing operational requirements while reducing the support costs
   associated with the aging fleet. After the March 1998 ORD update, USASOC
   made significant configuration changes to the planned MH-47D/E Service Life
   Extension Program that involved modifying the helicopters to include additional
   equipment. Specifically, in July 2002, USASOC revised its plans for the
   MH-47D and E helicopters to add the Common Avionics Architecture Suite, the
   avionics and hardware modifications identified in the Blue Grass Army Depot
   MH-47E Block III Modifications, September 28, 2000, and the Army’s Improved
   Data Modem to the MH-47D and E helicopters. These equipment additions will
   modernize the helicopter cockpits and enable the pilots to function in the digital
   battlefield. USASOC designated the modified helicopter configuration as the
   MH-47G helicopter and changed the program name to the MH-47G Helicopter
   Service Life Extension Program. In August 2002, the SOCOM Acquisition
   Executive approved the MH-47G Program for entry into LRIP.

   CJCS Instruction 3170.01B requires that DoD Components update the ORD as a
   program is further defined between acquisition milestones. Although required,
   USASOC did not update the ORD for the MH-47D/E Service Life Extension
   Program to define requirements associated with the MH-47G configuration.
   Instead, staff at USASOC and the MH-47G Product Management Office stated
   that operational requirements for the Common Avionics Architecture Suite and
   the other avionics and hardware modifications added in the MH-47G
   configuration were included in the following three separate ORDs:

      •   “Joint Operational Requirements Document AFSOC 022-91-ID
          Revision 1 for Special Operations Forces (SOF) Enhanced Situational
          Awareness (ESA),” May 3, 2001 (the Joint ORD) - The Joint ORD
          between USASOC and the Air Force Special Operations Command
          documents requirements for a situational awareness system to provide
          aircrews with near-real-time presentation of emitting and non-emitting
          threats, targets and other data; integration of enhanced situational
          awareness system data with existing and planned electronic warfare; and
          in-flight route replanning.

      •   “Operational Requirements Document for MH-47 and MH-60 Mission
          Processor,” February 24, 1997 (the Mission Processor ORD) - This ORD
          documents requirements for a mission processor system to provide fully




                                        5
       integrated, seamless throughput of all onboard avionics, communications,
       navigation, mission planning, and visual systems, and to provide precise
       and reliable pilot information and assistance in adverse mission
       conditions.

   •   “MH-47D/E Multi-function Display Processor System,”
       September 13, 1995 (the Multi-function Display Processor ORD) - This
       ORD documents requirements for a multi-function display processor
       system to provide improved performance and compatibility with new
       mission processor systems to give pilots state-of-the art visual and
       interactive data interfaces with all onboard systems, mapping, navigation,
       forward-looking infrared, and imagery.

To determine whether the three separate ORDs met the intent of DoD policy for
developing, validating, and approving system requirements, we discussed the
contents of the ORDs with the Offices of the Joint Chiefs of Staff Directors for
Command, Control, Communications and Computer Systems (J-6) and for Force
Structure, Resources, and Assessment (J8). While the staffs in J6 and J8 stated
that the DoD Components could use separate ORDs to document requirements for
a program, J6 staff stated that none of the three ORDs supporting the MH-47G
Program adequately defined the interoperability requirements for the MH-47G.
Specifically, of the three ORDs, only the Joint ORD, which SOCOM and the Air
Force approved rather than the DoD Joint Requirements Oversight Council,
included a key performance parameter for interoperability. Further, the J6 staff
stated that the interoperability key performance parameter in the Joint ORD did
not include enough detail to allow the J6 and the Joint Requirements Oversight
Council to certify the adequacy of the system interoperability requirement.

CJCS Instruction 3170.01B requires that DoD Components, when formulating the
required key performance parameter for interoperability in ORDs, define the level
of interoperability for the proposed system. In addition, CJCS
Instruction 6212.01B details the methodology for the DoD Components to follow
in developing, defining, and certifying the interoperability key performance
parameter.
Specifically, CJCS Instruction 6212.01B requires that the DoD Components
include a detailed definition of system interoperability requirements in the ORD
by providing a high-level operational concept graphic, a system interface
description, and an information exchange matrix. The high-level operational
concept graphic identifies required top-level joint and combined external
interfaces. The system interface description provides more detail through
identifying legacy, current, and future joint and combined subsystems and
interfaces required to exchange information. The information exchange matrix
details the system’s top-level joint and combined external information exchange
requirements in a matrix format.

The interoperability key performance parameter in the Joint ORD did not include
the detailed definition of interoperability that CJCS Instruction 6212.01B
requires. The Joint ORD states only that the Enhanced Situational Awareness




                                    6
     System shall be interoperable with Special Operations Forces, Army, Navy,
     Air Force, Marine Corps, allies within the North Atlantic Treaty Organization,
     and other allies.

Developing a C4I Support Plan
     As of May 2004, the MH-47G Product Manager had not prepared a C4I Support
     Plan for the MH-47G Program. Because the C4I Support Plan is based on the
     interoperability requirements defined in the ORD, the product manager would
     have to develop a C4I Support Plan based on the three ORDs that address the
     Common Avionics Architecture Suite and other avionics related-requirements.
     DoD Instruction 4630.8 requires that DoD Components develop C4I Support
     Plans for all acquisition category-designated programs to document their
     interoperability requirements and corresponding external supportability
     requirements. The “MH-47G Service Life Extension Program Single Acquisition
     Management Plan,” September 2002, states that the MH-47G is an Acquisition
     Category III Program. Additionally, the Guidebook advises that DoD
     Components should have a C4I Support Plan in place at program initiation and
     that, as the program matures, or proceeds through multiple evolutionary blocks or
     phases, the DoD Components should update the C4I Support Plan. The
     Guidebook further advises that C4I Support Plan updates should contain
     progressively more detailed and specific, time-phased descriptions of the types of
     information needed; operational, systems, and technical architecture
     requirements; information exchange requirements; spectrum supportability,
     security, connectivity, and interoperability issues; and infrastructure, intelligence,
     and other information technology, including National Security System support
     shortfalls.

Factors Affecting Definition of System and Supportability
  Requirements
     USASOC combat developers did not follow established DoD policy for timely
     updating requirements documents after planning to add additional avionics to the
     MH-47D/E helicopters to make the MH-47G configuration, and the MH-47G
     Product Manager did not follow established DoD policy for preparing a C4I
     Support Plan to address MH-47G interoperability and supportability
     requirements.

     Updating System Requirements Documents. In December 2003, we briefed
     USASOC staff on the need for updating the ORDs supporting the MH-47G
     Program. At the briefing, USASOC staff stated that they believed the existing
     three ORDs adequately supported the development and fielding of the MH-47G
     helicopter. USASOC staff also stated that:

        •   SOCOM can tailor the acquisition documentation process to support
            fielding weapons systems in a timely manner,

        •   revising the three existing ORDs would unacceptably delay the fielding of
            the MH-47G helicopter,


                                           7
   •   USASOC did not have the personnel or funding required to revise the
       three ORDs, and

   •   USASOC, as combat developer, works closely with the MH-47G program
       management staff to support an overall systems approach to program
       development.

As noted in the paragraph, “Updating the ORD,” the J6 staff of the CJCS stated
that the three ORDs were not adequate to fully support development and fielding
of the MH-47G because they lacked a Joint Requirements Oversight Council-
approved key performance parameter for interoperability containing the detail that
CJCS Instruction 6212.01B requires. Without an approved key performance
parameter for interoperability, the J6 staff stated that they would not be able to
approve a C4I Support Plan for the program, and that the program would not be
able to obtain the required system interoperability certification from the Joint
Interoperability Test Command.

The J6 and J8 staffs of CJCS recognized the effect that updating the three ORDs
could have on timely fielding of the MH-47G and the limited USASOC personnel
and funding resources. However, the J6 and J8 staffs stated that they would
coordinate with USASOC to document and obtain approval of updated
interoperability requirements to minimize the effect on timely fielding of the
MH-47G.

In updating the ORDs, the J6 and J8 staff of CJCS indicated that USASOC may
be able to use work that the Army has already done in defining requirements in
the “Operational Requirements Document for the CH-47F Cargo Helicopter
Change 3,” March 1, 2004, (the CH-47F ORD). The J6 staff suggested that,
rather than spending time and resources revising the three ORDs, a possible
alternative could be to allow USASOC to develop a MH-47G annex to the
CH-47F ORD. The USASOC could document MH-47G requirements in the
ORD annex, including requirements for interoperability, which differed from the
Army CH-47F requirements. Developing an annex to the CH-47F ORD would be
consistent with the acquisition strategy in the “MH-47G Service Life Extension
Program Single Acquisition Management Plan,” September 2002, which states
that the MH-47G Program will, to the maximum extent possible, capitalize on
Army effort on the CH-47F Program. The J6 staff approved the key performance
parameter for interoperability that the Army included in the CH-47F ORD.

Need for the C4I Support Plan. In July 2003, we briefed the MH-47G Product
Manager and staff on preparing a C4I Support Plan. The MH-47G Product
Manager responded that the MH-47G model did not include new interoperability
enhancements from the previous MH-47E model, and that the Milestone Decision
Authority did not require system interoperability requirements to be placed in the
ORD or C4I Support Plan certifications to be obtained from Joint Interoperability
Test Command. The Product Manager further stated that his office added the
Common Avionics Architecture Suite to the MH-47G configuration as an
engineering change proposal to replace obsolete parts in existing MH-47D and E
helicopters and that the SOCOM Technology Application Program Office had
developed the Common Avionics Architecture Suite as a separate program from
the MH-47G Program.


                                    8
     As discussed earlier, DoD Instruction 4630.8 mandates that DoD Components use
     the C4I Support Plan to document interoperability and supportability
     requirements for all DoD acquisition category programs. Even if the MH-47G
     had no interoperability enhancements from the MH-47E, which it will have after
     the addition of the Army’s improved data modem, the Joint Interoperability Test
     Command had not certified that the MH-47E met DoD interoperability
     requirements.

     Although the J6 and J8 staffs at the CJCS recognized that USASOC had urgent
     requirements for fielding the MH-47G, they stated that it was also imperative for
     the MH-47G Product Manager to begin preparing the C4I Support Plan to support
     interoperability testing and to obtain the required system interoperability
     certification from Joint Interoperability Test Command. As a first step, J6 staff
     stated that the MH-47G Product Manager should prepare and submit a request for
     an Interim Certificate to Operate (ICTO) to the Military Communications
     Electronics Board, Interoperability Test Panel, which J6 chairs.

     The ICTO is designed for acquisition programs that cannot complete
     interoperability testing requirements before system fielding because of urgent
     operational needs. The application form for the ICTO provides the JCS with
     information on system description, planned system interfaces, and a suggested
     plan for working towards interoperability certification. For systems with urgent
     fielding requirements, the ICTO provides a JCS-approved alternative to the DoD
     Instruction 6212.01B requirement for programs to obtain Joint Interoperability
     Test Command interoperability testing before fielding. The charter for the
     Interoperability Test Panel states that the ICTO shall not exceed 1 year but it also
     states that the Interoperability Test Panel will consider extensions.

Effect of Delay in Defining Interoperability and Supportability
  Requirements
     To effectively review and certify interoperability requirements for the MH-47G
     Program, the JCS needs an ORD that includes a fully defined key performance
     parameter for interoperability. When documented in the detail and format
     required in CJCS Instruction 6212.01B, the key performance parameter for
     system interoperability defines the level of required interoperability for a system
     through its information exchange requirements. The information exchange
     requirements document shows who should exchange what information with
     whom, why the information is necessary, and how the information exchange must
     occur as the system performs its mission.

     Fully defining interoperability requirements for the MH-47G Program in an ORD
     will also allow the MH-47G Product Manager to prepare a C4I Support Plan.
     Development and submission of the C4I Support Plan is important, both for the
     MH-47G Program and for the DoD. For the program, the C4I Support Plan
     identifies the operational employment concept, support requirements, system
     interface descriptions, information exchange requirements, potential shortfalls,
     and potential solutions. Additionally, the Product Manager can use the C4I
     Support Plan as a framework for planning and executing the interoperability



                                           9
    testing necessary to allow the Joint Interoperability Test Command to certify that
    the MH-47G helicopter has met system interoperability requirements before the
    planned full-rate production decision in November 2004.

    As explained in the Guidebook, a broad range of DoD offices review individual
    program C4I Support Plans for a variety of interoperability and supportability
    assessments to determine DoD-wide shortfalls and potential solutions.
    Information from individual C4I Support Plans helps DoD identify and timely
    resolve cross-program command, control, communications, computers,
    intelligence, surveillance, and reconnaissance infrastructure and support issues.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments from the
    Director, Joint Staff, we have revised Recommendations 1. and 2. We revised
    Recommendation 1. to recommend that, in addition to developing an
    interoperability key performance parameter for the MH-47G helicopter, the
    USASOC should also develop a migration strategy for transitioning from the
    interoperability key performance parameter to a net-ready key performance
    parameter. Additionally, we revised Recommendation 2. to give the Product
    Manager for the MH-47G Helicopter Service Life Extension Program updated
    steps for working toward interoperability certification and validation.

    1. We recommend that the Commander, U. S. Army Special Operations
    Command coordinate with the Joint Chiefs of Staff Directors for Command,
    Control, Communications and Computers Systems Directorate (J6) and for
    Force Structure, Resources, and Assessment (J8) to develop an
    interoperability key performance parameter for the MH-47G helicopter in
    accordance with Chairman, Joint Chiefs of Staff Instruction 3170.01B,
    “Requirements Generation System,” April 15, 2001, along with a migration
    strategy for transitioning to the net-ready key performance parameter in
    accordance with Joint Requirements Oversight Council Memorandum
    236-03, “Policy for Updating Capabilities Documents to Incorporate the Net
    Ready Key Performance Parameter,” December 19, 2003.

    U. S. Army Special Operations Command Comments. The Deputy
    Commanding General, responding for the Commander, U. S. Army Special
    Operations Command, concurred, stating that the USASOC will submit an
    amendment to the MH-47D/E Service Life Extension Program ORD that will
    include the requirement for an interoperability key performance parameter in
    accordance with CJCS Instruction 3170.01B, “Requirements Generation System,”
    April 15, 2001. The Deputy Commanding General further stated that USASOC
    would forward the amended ORD to SOCOM for approval at the SOCOM
    Requirements Evaluation Board scheduled for July 21-22, 2004.

    Director, Joint Staff Comments. Although not required to comment, the
    Director, Joint Staff stated that the recommendation should recommend that the
    Commander, SOCOM coordinate with the Joint Chiefs of Staff Directors for
    Command, Control, Communications and Computers Systems Directorate (J6)


                                        10
and for Force Structure, Resources, and Assessment (J8) to ensure that the
MH-47G Program meets requirements for capabilities documentation,
interoperability certification, and certification testing in accordance with the latest
Joint Staff policy, to include CJCS Instruction 3170.01D, “Joint Capabilities
Integration and Development System,” March 12, 2004; CJCS
Manual 3170.01A, “Operation of the Joint Capabilities Integration and
Development System, March 12, 2004; and CJCS Instruction 6212.01C,
“Interoperability and Supportability of Information Technology and National
Security Systems,” November 20, 2003. Additionally, in response to
Recommendation 2., the Director, Joint Staff stated that USASOC should develop
a plan to prepare and submit the net-ready key performance parameter in the
required capabilities and supportability documentation for the MH-47G
helicopter.

Audit Response. The comments from the Deputy Commanding General,
USASOC were responsive to draft Recommendation 1. for developing an
interoperability key performance parameter for the MH-47G helicopter.
However, based on the Director, Joint Staff comments that USASOC should
define system capabilities in accordance the latest Joint Staff policy, we revised
Recommendation 1. to add that USASOC should also develop a migration
strategy for transitioning to a net-ready key performance parameter. As explained
in the finding, CJCS Instruction 6212.01C, which superceded CJCS
Instruction 6212.01B, requires the broader-scoped, net-ready key performance
parameter rather than the interoperability key performance parameter. Direction
in the Joint Requirements Oversight Council Memorandum 236-03, “Policy for
Updating Capabilities Documents to Incorporate the Net Ready Key Performance
Parameter,” December 19, 2003 (the Joint Requirements Oversight Council
Memorandum), further supports the revision to Recommendation 1. Specifically,
the Joint Requirements Oversight Memorandum states that all capabilities
documents containing key performance parameters will include the net-ready key
performance parameter or a migration strategy for transitioning to the net-ready
key performance parameter unless the Joint Requirements Oversight Council
grants an exemption for a specific program.
In response to the final report, we request that the Commander, USASOC provide
comments on the revised recommendation, which includes establishing a
migration plan for transitioning from the interoperability key performance
parameter to the net-ready key performance parameter as required in the Joint
Requirements Oversight Council Memorandum.

2. We recommend that the Product Manager for the MH-47G Helicopter
Service Life Extension Program:

       a. Coordinate with the Joint Chiefs of Staff Directors for Command,
Control, Communications and Computers Systems Directorate (J6) and for
Force Structure, Resources, and Assessment (J8) to:

             (1) determine the appropriate capabilities documentation
needed to meet interoperability certification and validation requirements,
and



                                      11
               (2) develop a plan to prepare and submit the required
documentation, obtain interoperability and supportability certification, and
obtain interoperability test certification in accordance with Chairman, Joint
Chiefs of Staff Instruction 6212.01C, “Interoperability and Supportability of
Information Technology and National Security Systems,” November 20,
2003.

        b. Prepare and submit to the Interoperability Test Panel a request for
an Interim Certificate to Operate that includes information on system
description, planned interfaces, and a suggested plan for working towards
interoperability certification and Joint Interoperability Test Command test
certification in accordance with the Military Communication Electronics
Board Interoperability Test Panel Charter, Annex D; the Chairman, Joint
Chiefs of Staff Instruction 3170 Series publications; and Chairman, Joint
Chiefs of Staff Instruction 6212.01C, “Interoperability and Supportability of
Information Technology and National Security Systems,” November 20,
2003.

U. S. Army Special Operations Command Comments. The Deputy
Commanding General, responding for the Commander, USASOC nonconcurred,
stating that no extensive interoperability testing should be required for the
MH-47G helicopter because of the previously demonstrated interoperability of the
predecessor model, the MH-47D/E. The Deputy Commanding General stated that
the USASOC employment of the MH-47D/E helicopters since 1996, including
recent deployments in support of the Global War on Terrorism, had demonstrated
a system interoperability that ensured the warfighter an effective and integrated
array of aircraft systems and networks that meet all mission needs. Further, the
Deputy Commanding General stated that USASOC has been and will continue
addressing interoperability assurance during developmental and operational
testing and user evaluation of airborne platforms for special operations forces.

Director, Joint Staff Comments. Although not required to comment, the
Director, Joint Staff stated that, to resolve draft report issues, we should revise
Recommendation 2. to recommend that the Product Manager for the MH-47G
Helicopter Service Life Extension Program:

   •   coordinate with the Joint Chiefs of Staff Directors for Command, Control,
       Communications and Computers Systems Directorate (J6) and for Force
       Structure, Resources, and Assessment (J8) to determine the appropriate
       capabilities documentation needed to meet interoperability certification
       and validation requirements and to develop a plan to prepare and submit
       the required documentation (including the net-ready key performance
       parameter), obtain interoperability and supportability certification, and
       obtain interoperability test certification in accordance with current polices;
       and

   •   prepare and submit to the Interoperability Test Panel a request for an
       Interim Certificate to Operate that includes information on system
       description, planned interfaces, and a suggested plan for working towards
       interoperability certification and Joint Interoperability Test Command test



                                      12
   certification in accordance with the Military Communication Electronics
   Board Interoperability Test Panel Charter, Annex D; the CJCS 3170 Series
   publications; and CJCS Instruction 6212.01C.

Audit Response. The comments from the Deputy Commanding General,
USASOC were not responsive. The Deputy Commanding General’s assertion
that the USASOC did not need to perform extensive interoperability testing for
the MH-47G helicopter because of the previously demonstrated interoperability of
the predecessor helicopter, the MH-47D/E, is contrary to policy in both CJCS
Instruction 6212.01B and the revision, CJCS Instruction 6212.01C. Specifically,
CJCS Instruction 6212.01B states that hardware and software modifications that
affect the interoperability of fielded systems will require Joint Interoperability
Test Command recertification before the modifications are fielded for initial
operational capability. As stated in the finding, the Joint Interoperability Test
Command had never certified that the MH-47 D/E met DoD interoperability
requirements. Also, the planned addition of the Army’s improved data modem to
the MH-47G will affect system interoperability and thus require Joint
Interoperability Test Command certification.

CJCS Instruction 6212.01C also requires interoperability and supportability
certification and certification testing for fielded systems. Specifically, the
Instruction requires verification that all proposed material remedies for fielded
systems (such as the planned addition of the Army’s improved data modem to the
MH-47G) meet interoperability and supportability requirements. Additionally,
CJCS Instruction 6212.01C states that, if a program fails to meet certification
requirements, the Joint Chiefs of Staff Director for Command, Control,
Communications and Computers Systems Directorate (J6) will not validate the
program and will recommend that the program not proceed to the next milestone.
In addition, the program will not receive additional funding until the program
achieves compliance and validation. The Director for Command, Control,
Communications and Computers Systems Directorate (J6) will forward these
recommendations to the Under Secretary of Defense for Acquisition, Technology,
and Logistics; the Under Secretary of Defense (Comptroller); the Joint
Requirements Oversight Council; and other officials within the Office of the
Secretary of Defense for consideration and action. Additionally, the Director will
request that that the Director, Operational Test and Evaluation add the program to
the Interoperability Watch List, in accordance with DoD Instruction 4630.8.

Accordingly, we revised Recommendation 2. as suggested by the Director, Joint
Staff to provide the Product Manager for the MH-47G Helicopter Service Life
Extension Program with the necessary steps required to work towards
interoperability certification under the latest Joint Staff policy. We request that
the Product Manager for the MH-47G Helicopter Service Life Extension Program
respond to the revised recommendation in the final report.




                                    13
Appendix A. Scope and Methodology
    We evaluated whether the Product Manager for the MH-47G helicopter was
    effectively developing and preparing the program for full rate production.
    Consequently, the review focused on the areas of requirements generation, design,
    test and evaluation, contracting, and Defense Contract Management Agency
    (DCMA) support.

    To evaluate whether the product manager was effectively managing the MH-47G
    Program, we examined system operational requirements documents; CJCS
    Instruction 3170.01B, “Requirements Generation System,” April 15, 2001; CJCS
    Instruction 6212.01B, “Interoperability and Supportability of National Security
    Systems (NSS) and Information Technology (IT) Systems,” May 8, 2000; DoD
    Instruction 4630.8, “Procedures for Interoperability and Supportability of
    Information Technology (IT) and National Security Systems (NSS),” May 2,
    2002; DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003;
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
    2003; the “Interim Defense Acquisition Guidebook,” (the Guidebook),
    October 30, 2002; and the “Defense Contract Management Agency One Book,”
    (the One Book), June 2003.

    We reviewed documentation dated from September 1995 to March 2004 that we
    obtained from the MH-47G Product Office and the SOCOM Technology
    Application Program Office at Fort Eustis, Virginia; the U. S. Army Special
    Operations Command, Fort Bragg, North Carolina; the 160th Special Operations
    Aviation Regiment (Airborne), Fort Campbell, Kentucky; the DCMA - Boeing
    Helicopters, Philadelphia, Pennsylvania; and the DCMA - Rockwell Collins,
    Cedar Rapids, Iowa.

    We performed this audit from October 2003 through March 2004 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. Two electrical engineers from the Electronics
    Engineering Branch, Technical Assessment Division in Audit Followup and
    Technical Support, Office of the Inspector General of the Department of Defense
    assisted in the audit. The electrical engineers assisted the audit team in analyzing
    the MH-47G Program system design.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapons Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”


                                         14
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we reviewed management
    controls that the Chief of Staff, USASOC established that were directly related to
    requirements generation, design, acquisition planning, program assessments,
    contracting, and test and evaluation for the MH-47G Program.

    Adequacy of Management Controls. We identified a material management
    control weakness, as defined in DoD Instruction 5010.40, relating to requirements
    generation. Specifically, the management controls were not adequate to ensure
    that the Product Manager fully defined system interoperability and supportability
    requirements and obtained appropriate validation in accordance with CJCS
    Instructions 3170.01B and 6212.01B, and DoD Instruction 4630.8.
    Recommendations 1. and 2., if implemented, will ensure adherence to regulatory
    requirements. We will provide a copy of the report to the senior official
    responsible for management controls in the Office of Chief of Staff, USASOC.

    Adequacy of Management’s Self-Evaluation. The Chief of Staff, USASOC
    required that the Product Manager, Technology Applications Program Office, as a
    management control assessable unit, perform reviews of programs under the
    Product Manager’s control to satisfy the management control requirement for
    self-evaluation. Although the Product Manager reviewed the functional areas of
    Budget Execution and the Government Purchase Card Program in support of his
    FY2003 statement of assurance to the Chief of Staff, he did not identify the
    specific management control weaknesses that the audit identified because he did
    not require the management control administrator at the MH-47G Product Office
    to review those areas as part of the MH-47G Program self-evaluation.

Prior Coverage
    No prior coverage has been conducted on MH-47G Service Life Extension
    Program during the last 5 years. However, the Inspector General of the
    Department of Defense (IG DoD) issued a report on the Army CH-47F Improved
    Cargo Helicopter, which shares a production line with the MH-47G helicopter.
    Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

IG DoD

    IG DoD Report No. D-2004-046, “Acquisition of the CH-47F Improved Cargo
    Helicopter,” January 21, 2004




                                        15
Appendix B. Management’s Corrective Actions
            Taken During the Audit
   The SOCOM and the Army initiated corrective actions during the audit to address
   audit issues concerning updating and approving a draft program management
   MOA between the SOCOM Product Manager, Technology Applications Program
   Office and the Army Project Manager, Cargo Helicopters. An updated program
   management MOA was needed to enable SOCOM and Army managers to better
   coordinate the development and production of the MH-47G and CH-47F
   helicopters. Also, the Product Manager, Technology Applications Program
   Office and the Commander, DCMA - Boeing, Philadelphia, revised and approved
   the contract support MOA to fully define DCMA contractor surveillance activities
   for the Product Manager. Additionally, the MH-47G Product Manager revised
   the draft test and evaluation master plan to quantify threshold requirements for
   measures of effectiveness and suitability, provide the rationale for not requiring
   live-fire test and evaluation, and provide required schedule dates for test
   resources. Finally, the MH-47G Product Manager met with the contracting staff
   to emphasize the need for prompt communication of critical information between
   his procurement contracting office and the administrative contract office
   supporting the Army.

   Updating and Approving the Program Management MOA. The SOCOM
   Product Manager, Technology Applications Program Office and the Army Project
   Manager, Improved Cargo Helicopters revised the draft “Memorandum of
   Agreement Between the Product Manager - The Technology Applications
   Program Office and the Project Manager - Improved Cargo Helicopter (ICH)
   Program Office,” September 15, 2003, to:

      •   specify the new helicopter production profile that Program Decision
          Memorandum -1 mandated,

      •   require the Army to provide 30 helicopters to SOCOM in support of the
          new production profile, and

      •   perform service life extension on aircraft sequentially, from oldest aircraft
          to newest, thereby reducing future maintenance costs.

   The revisions to the MOA will enhance effective coordination between the
   MH-47G and the CH-47F project offices, their supporting organizations, and
   contractors and help SOCOM and the Army better plan for managing the
   schedule, technical, and cost risks associated with the programs. The SOCOM
   and the Army approved the revised MOA on October 3, 2003.

   Revising and Approving the Contract Support MOA. The Product Manager,
   Technical Applications Program Office and the Commander, DCMA - Boeing,
   Philadelphia, revised the draft “Memorandum of Agreement Between the




                                       16
Technology Applications Program Office and the DCMA - Boeing, Philadelphia,”
June 25, 2003, to:

   •   define DCMA use and participation in integrated product teams to monitor
       and mitigate program risks,

   •   require that DCMA review and assess the contractor’s earned value
       management system and report program performance assessments to the
       MH-47G Product Manager, and

   •   specify DCMA responsibilities for MH-47G flight-testing to include
       performing maintenance and acceptance tests, monitoring contractor flight
       operations, providing production development feedback during
       operational tests, and monitoring Government-furnished equipment.

As a result of the revisions to the support MOA, DCMA will provide timely
insight, information, analysis, and actions to prevent, or identify and resolve,
existing and potential program problems, enabling the Product Manager to better
maintain the MH-47G Program’s performance within cost and schedule as it
transitions from LRIP to full-rate production.

Revising the Test and Evaluation Master Plan. The Project Manager,
Technology Application Program Office issued the revised MH-47G Test and
Evaluation Master Plan, February 20, 2004, to:

   •   Define threshold values for critical operational requirements for:

           •   radar warning;

           •   radar jamming;

           •   decoys for heat seeking missiles;

           •   taking off, flying, and landing in adverse weather without external
               reference;

           •   conducting covert operations without artificial illumination;

           •   providing capability to receive data through a data logger; and

           •   transmitting forward-looking infrared video by ultra-high
               frequency, satellite communication, or high frequency.

   •   Provide rationale for not planning live-fire test and evaluation for the
       MH-47G.

   •   Provide schedule dates for test articles and test sites and instruments for
       spectrum analysis, human factors, electromagnetic vulnerability, and color
       weather radar.




                                    17
The revisions to the test and evaluation master plan should help the MH-47G
Product Manager and SOCOM to better plan and execute testing to evaluate the
MH-47G. SOCOM approved the revised test and evaluation master plan on
March 12, 2004.

Communicating Critical Contract-Related Information. In April 2003, the
SOCOM procurement contracting office experienced a 1 month delay in receiving
notification from the Army administrative contract office about a contract
modification for 1 month delay in inducting four of the seven CH-47D helicopters
into the Summit Aviation Induction Center to begin the upgrade to the MH-47G
and the CH-47F configurations. Consequently, according to SOCOM contracting
office staff, the MH-47G Product Manager met with the contracting staff to
emphasize the need for prompt communication of critical information between his
procurement contracting office and the administrative contract office supporting
the Army. Because the MH-47G and CH-47F programs will share the same
contractor production line, it is critical that SOCOM and Army contracting offices
relay important contract-related information.




                                    18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander, U. S. Special Operations Command
  Commander, U.S. Army Special Operations Command
  Product Manager, Technology Applications Program Office




                                          19
Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Department of the Army Comments




                    21
22
Joint Staff Comments




                       23
Final Report
 Reference




Page 10




Pages 11-12




               24
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition Management prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the
report are listed below.

John E. Meling
Harold C. James
Patrick E. McHale
Bradford C. Green
Vilma R. Sacco
Jamie Bobbio
Wei Chang
Jacqueline N. Pugh
